                                   SOCIAL SECURITY
MEMORANDUM
Date:   March 10, 2003                                                  Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Disability Determination Services' Use of Volume Consultative Examination Providers
        (A-07-02-12049)


        The attached final Management Advisory Report presents the results of our review. Our
        objectives were to determine why only a small number of State Disability Determination
        Services receive discounts on consultative examinations purchased from volume
        medical providers and whether the potential exists to increase discounts from volume
        medical providers.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




                                                             James G. Huse, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



    DISABILITY DETERMINATION
            SERVICES’
   USE OF VOLUME CONSULTATIVE
     EXAMINATION PROVIDERS

     March 2003   A-07-02-12049




  MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                       Executive Summary
OBJECTIVES
Our objectives were to determine (1) why only a small number of State Disability
Determination Services (DDS) receive discounts on consultative examinations (CE)
purchased from volume medical providers (VMP) and (2) whether the potential exists to
increase CE discounts from VMPs.

BACKGROUND
In making disability determinations for the Social Security Administration (SSA), the
DDSs are responsible for obtaining sufficient medical evidence from treating sources
(medical sources who have or have had an ongoing treatment relationship with the
claimant) to determine whether the claimant is disabled under the law. However, when
medical evidence is not available or is insufficient, DDSs purchase CEs, to include
medical and psychological examinations, x-rays, and laboratory tests. SSA procedures
define a VMP as one specializing in performing CEs for State agencies. Usually, a
VMP is a provider with estimated CE billings of $100,000 or more, annually.

RESULTS OF REVIEW
Our review disclosed that 38 of the 54 DDSs purchased CEs from VMPs during Fiscal
Year 2001. The other 16 DDSs stated that small CE workloads did not attract VMPs.
However, only 5 of the 38 DDSs that purchased CEs from VMPs received CE
discounts. The remaining 33 DDSs that purchased CEs from VMPs offered various
reasons for not receiving discounts, with low CE rates cited as the primary reason.
Specifically, some of the DDSs stated their CE fees were lower than Medicare rates.
We confirmed that four of the five DDSs that received discounts from VMPs in Fiscal
Year 2001 had CE rates lower than Medicare’s rates.

We believe the potential exists to increase CE discounts at some DDSs, especially
those that have established relationships with VMPs. Furthermore, SSA needs to assist
the DDSs in expanding the use of negotiated discounts with VMPs as a means of
reducing medical costs and should concentrate on those DDSs where such an
approach would be cost beneficial to the Agency. We also identified best practices that
may improve the DDSs ability to procure discounts from VMPs.

RECOMMENDATIONS AND AGENCY COMMENTS

We recommend that SSA (1) identify the methods and processes used by the New
York, Florida, and Oregon DDSs to obtain discounts from multiple VMPs and
disseminate the information to other DDSs and (2) provide guidance to the DDSs for
recruiting VMPs and negotiating discounted CE fees. SSA agreed with our
recommendations. See Appendix E for the full text of SSA’s comments.

Disability Determination Services’ Use of Volume CE Providers (A-07-02-12049)           i
                                                         Table of Contents
                                                                                                                  Page

INTRODUCTION...........................................................................................................1

RESULTS OF REVIEW ................................................................................................4

    DDSs Receiving Discounts from VMPs ...................................................................4

    DDSs Not Receiving Discounts from VMPs.............................................................6

    Comparison of DDS and Medicare Fees .................................................................8

    Potential Impact of VMP Discounts..........................................................................8

    Best Practices for Obtaining Discounts....................................................................8

CONCLUSIONS AND RECOMMENDATIONS...........................................................10

APPENDICES

APPENDIX A – Disability Determination Services' Reasons For Not Using Volume
             Medical Providers in Fiscal Year 2001

APPENDIX B – Reasons Disability Determination Services Did Not Secure Discounts
             on Consultative Examinations from Existing Volume Medical Providers
             in Fiscal Year 2001

APPENDIX C – Hypothetical Discounts at 33 Disability Determination Services That Did
             Not Receive Discounts from Volume Medical Providers

APPENDIX D – Comparison of Disability Determination Services’ Rates for
             Consultative Examinations to Medicare’s Rates

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments




Disability Determination Services’ Use of Volume CE Providers (A-07-02-12049)
                                                                    Acronyms
CE                    Consultative Examination
CPT                   Current Procedural Terminology
DDS                   Disability Determination Services
DI                    Disability Insurance
FY                    Fiscal Year
OD                    Office of Disability
OIG                   Office of the Inspector General
POMS                  Program Operations Manual System
SSA                   Social Security Administration
SSI                   Supplemental Security Income
VMP                   Volume Medical Provider




Disability Determination Services’ Use of Volume CE Providers (A-07-02-12049)
                                                                     Introduction
OBJECTIVES

Our objectives were to determine (1) why only a small number of State Disability
Determination Services (DDS) receive discounts1 on consultative examinations (CE)
purchased from volume medical providers (VMP) and (2) whether the potential exists to
increase discounts from VMPs.

BACKGROUND
The Disability Insurance (DI) program, established in 1954 under title II of the Social
Security Act, provides benefits to disabled wage earners and their families. In
1972, Congress enacted title XVI, the Supplemental Security Income (SSI) program.
Title XVI provides a nationally uniform program of income and disability coverage to
financially needy individuals who are aged, blind or disabled.

Disability determinations under the DI and SSI programs are made by the DDSs in each
State or other responsible jurisdiction in accordance with Federal regulations.2 The
DDS is responsible for obtaining evidence sufficient to determine whether the claimant
is disabled under the law.3 In making disability determinations, the DDSs obtain
medical evidence from the claimants’ treating sources.4 However, when this medical
evidence is not available or is insufficient to make a disability determination, the DDS
can purchase CEs.5 Each State is responsible for determining the rate of payment used
by its DDS to purchase CEs.6 Accordingly, CE rates of payment vary among the DDSs.

Concerned about rising DDS medical costs, the Social Security Administration (SSA)
encouraged the DDSs to contain medical spending. In response, the DDSs decreased
the average national medical cost per case slightly from $110 per case in Fiscal Year


1
 A discount occurs when the CE rate of payment to a medical provider is less than the maximum fee
allowed in the DDS fee schedule.
2
    20 C.F.R. §§ 404.1601, et seq. and 416.1001, et seq.
3
    20 C.F.R. §§ 404.1614 and 416.1014.
4
  A treating source is a claimant's own physician, psychologist, or other acceptable medical source that
has provided the individual with medical treatment or evaluation and has or has had an ongoing treatment
relationship with the individual. (20 C.F.R. §§ 404.1502 and 416.902).
5
  20 C.F.R. §§ 404.1519a and 416.919a. (CEs include medical and psychological examinations, x-rays,
and laboratory tests.). In addition, the treating source is usually the preferred source to perform the CE
(20 C.F.R. §§ 404.1519(h) and 416.919(h)).
6
    20 C.F.R. §§ 404.1624 and 416.1024.


Disability Determination Services’ Use of Volume CE Providers (A-07-02-12049)                          1
(FY) 1999 to $107 per case in FY 2001. However, medical costs remain a concern at
the national level and for particular DDSs. Nationally, in the first 6 months of
FY 2002, the medical cost per case averaged $119, which is $8 per case over the
projected $111 cost per case. From FY 1999 to FY 2001, the medical cost per case
increased for some DDSs. For example, the Texas DDS’ medical cost per case
increased $11.76 to a total of $127.02, and the Georgia DDS had an increase of
$21.19, raising the total to $142.31 per case.7

Agency procedures define a VMP as a medical provider that specializes in performing
CEs for State agencies. Usually, a VMP is a provider with estimated billings of
$100,000 or more annually for CEs.8

SCOPE AND METHODOLOGY
We developed a questionnaire to collect information from the DDSs on CEs purchased
from VMPs during FY 2001. In January 2002, SSA’s Office of Disability (OD) sent our
questionnaire to all 54 DDSs, asking them to provide responses to OD. In March 2002,
we received the DDS’ responses from OD.

Our analysis of the questionnaires and subsequent discussions with the DDS’ staff
identified five DDSs (New York, Florida, Oregon, Michigan, and Nevada) that received
discounts on CEs purchased from VMPs during FY 2001, and we selected these DDSs
for our review. We also selected five additional DDSs (California, Georgia, Illinois,
Ohio, and Texas) to determine why they had not obtained discounts on CEs from
VMPs. These DDSs were selected because they had CE expenditures of $10 million or
more during FY 2001, which would indicate a greater possibility of discounts from VMPs
because of larger CE workloads.

For the 10 DDSs included in our review, we did the following.

•     We interviewed DDS staff to obtain information on their CE processes, including
      experiences with VMPs.

•     We obtained the CEs comprising 50 percent or more of FY 2001 CE expenditures
      and asked the DDSs for assistance in crosswalking9 their CE codes to the 2001
      Medicare current procedural terminology (CPT) codes.10 We did not verify
      information received from the DDSs in terms of types, numbers or dollar amounts of
      CEs. We then compared DDS’ rates of payment for the CEs to Medicare’s rates of
7
    Medical cost per case information provided by the Office of Disability.
8
    Program Operations Manual System (POMS), DI 39542.205B.
9
 Crosswalking is the process of identifying which medical service (and its associated CPT code) on the
Medicare fee schedule is the same or similar to the DDS’ CE.
10
  The CEs comprising 50 percent or more of the FY 2001 expenditures are not necessarily the same CE
services for which the DDSs received discounts.


Disability Determination Services’ Use of Volume CE Providers (A-07-02-12049)                      2
   payment for the same or similar medical service to determine the variances between
   Medicare and DDS rates of payment.

We performed our field work between March and July 2002 in Kansas City, Missouri.
The audited entities were DDSs under the Deputy Commissioner for Disability and
Income Security Programs.




Disability Determination Services’ Use of Volume CE Providers (A-07-02-12049)    3
                                                Results of Review
Our review disclosed that 38 of the 54 DDSs purchased CEs from VMPs during
FY 2001. The remaining 16 DDSs stated that small CE workloads did not attract VMPs
(Appendix A). However, only 5 of the 38 DDSs that purchased CEs from VMPs
received CE discounts (New York, Florida, Oregon, Nevada, and Michigan). Of these,
the New York, Florida, and Oregon DDSs reported more success in obtaining discounts
from multiple VMPs than the Michigan and Nevada DDSs.

The remaining 33 DDSs offered various reasons for not receiving discounts, with low
CE rates of payment cited as the primary reason (Appendix B). Specifically, some of
the DDSs stated that their CE fees were lower than Medicare rates of payment, which
are considered low rates of payment by some in the medical community. However, we
confirmed that four of the five DDSs that received discounts from VMPs in FY 2001
were able to obtain discounts even though their CE rates were lower than Medicare’s
rates of payment.

DDSs RECEIVING DISCOUNTS FROM VMPs
In FY 2001, the New York, Florida, Oregon, Nevada, and Michigan DDSs received
discounts on CEs purchased from VMPs. The New York, Florida, and Oregon DDSs
reported more success in recruiting multiple VMPs and negotiating discounts than the
Nevada and Michigan DDSs. The VMP experiences of these five DDSs are discussed
below.

New York DDS

Since 1986, the New York DDS has used competitive bidding11 to obtain CEs from
VMPs. Initially, the DDS concentrated its competitive bidding efforts in the most
densely populated areas of the State where large medical communities existed. Later,
the DDS expanded competitive bidding to other, less populated areas of the State. The
New York DDS staff stated that securing VMPs had not been a problem. However, they
informed us that competitive bidding works best in areas where the minimum population
is 300,000 to 400,000.

In FY 2001, VMPs received about 94 percent of the $25 million expended by the New
York DDS for CEs. During this period, the DDS purchased CEs from 11 VMPs, of

11
   A DDS may use the competitive bidding process if State law and the DDS’ parent agency so allow.
Briefly, the process involves preparing a Request for Proposals in which the DDS sets forth the
requirements that bidders must meet. Requirements for CE services include such factors as condition
and location of the facility, types of services needed, what the DDS expects the bidder to charge for
services, services the DDS will and will not pay for, DDS expectations for timeliness and quality of
reports, when the provider will be paid, and policies on no-show appointments. Interested bidders submit
a technical proposal and a financial proposal, and proposals are evaluated and ranked by the DDS and/or
the parent agency. Bidders who meet or exceed the DDS’s requirements are awarded contracts.


Disability Determination Services’ Use of Volume CE Providers (A-07-02-12049)                      4
which 5 were secured through competitive bidding. Securing VMPs by competitive
bidding has reduced the New York DDS’ medical costs. The DDS could not provide us
a dollar savings, but estimated cost savings from VMPs ranged from 9 to 45 percent.

Florida DDS

Since the early 1980s, the Florida DDS has been successful at informally negotiating
CE discounts with its VMPs. The DDS staff attributed the success to (1) large urban
areas with large numbers of medical providers to compete for CEs, (2) professional
relations staff who are aggressive in recruiting VMPs and negotiating CE discounts, and
(3) management that supports recruitment of VMPs and discount negotiation efforts.

In FY 2001, the Florida DDS spent about $13.6 million to purchase CEs. About
18 percent of this payment went to 15 VMPs at discounted fees. The DDS was unable
to provide us cost savings that resulted from discounted fees from VMPs because data
were not readily accessible.

Oregon DDS

Since 1984, the Oregon DDS has used competitive bidding to obtain CEs from VMPs at
discounted fees. DDS staff stated that competitive bidding began as one method of
controlling medical costs. The DDS reported no problems in recruiting VMPs.

In FY 2001, the DDS spent about $4.1 million on CEs. The Oregon DDS paid
19 percent of the total to its three VMPs who discounted fees. The DDS reported
savings of $51,594 in FY 2001. However, the savings represented only 6.7 percent of
the CE costs incurred for VMPs and related to a fee schedule that was significantly
higher than Medicare fees paid for comparable services.

Nevada DDS

In FY 2001, the Nevada DDS had one VMP who formerly worked for the Illinois DDS
and retired to Nevada. The medical provider agreed to perform comprehensive physical
examinations for the Nevada DDS at a substantial discount. DDS staff estimated the
DDS saved about $59,000 in FY 2001. About 13 percent of the DDS’ FY 2001 total CE
expenditures of $1.5 million went to this VMP.

The Nevada DDS has been unsuccessful in recruiting additional VMPs. Nevada DDS
staff stated that recruiting VMPs was a problem because medical providers complain
the CE fees are too low. The DDS further attributed its lack of success in securing
VMPs to the State’s sparse population. There are only two major urban areas in
Nevada: Reno/Carson City and Las Vegas. Most claimants in rural areas must travel
to one of the two urban areas for a CE.




Disability Determination Services’ Use of Volume CE Providers (A-07-02-12049)      5
Michigan DDS

In FY 2001, the Michigan DDS spent about $7.2 million purchasing CEs, and about
59 percent of the total was paid to eight VMPs. Michigan reported little success in
securing VMPs to perform CEs at discounted fees. In FY 2001, only one of Michigan’s
eight VMPs offered a discounted fee, and the discount was only $1 per CE.

According to DDS staff, VMPs considered the DDS’ CE fees too low, and competitive
bidding was not successful. The Michigan DDS’ unsuccessful attempt at competitive
bidding began a decade ago in Wayne County, the most densely populated county,
which includes Detroit. Few medical providers met the requirements to competitively
bid. Three clinics were awarded 3-year contracts. One clinic withdrew its bid, and the
other two clinics experienced start-up problems, such as volume distribution and
scheduling. After 3 years, instead of starting over, the DDS extended the contracts for
another term. After this term expired, the DDS had problems rebidding the contracts.
Only two clinics met the qualifications, but one clinic was $40 above the DDS’ fee
schedule. The other provider gave the DDS a $1 discount on each CE. In FY 2002,
this provider would not renew the contract, and the DDS put competitive bidding on
hold.

DDSs NOT RECEIVING DISCOUNTS FROM VMPs
We also selected five large CE volume DDSs for our review to determine why they did
not obtain discounts on CEs from their VMPs (California, Georgia, Illinois, Ohio, and
Texas). These DDSs were selected based on having annual CE expenditures of
$10 million or more, accounting for 34 percent of all CE expenditures in the United
States during FY 2001.

We would expect these DDSs to have success at negotiating discounts on CEs given
the large volume of CEs purchased. However, staff from these five DDSs attributed low
CE rates of payment as the foremost reason for not securing discounts from their
VMPs.

California DDS

During FY 2001, VMPs received about 63 percent of the California DDS’ total CE
payments (see Appendix C). DDS staff stated that recruiting VMPs is not a problem in
urban areas. However, the DDS staff stated it had not attempted to negotiate
discounted CE fees with the VMPs because its CE fee schedule is too low to expect
discounts. DDS staff also stated that it has avoided attempting to secure discounts
through competitive bidding because it would be administratively burdensome. For
example, each of the DDS’ 12 branch offices would have separate contracts for VMPs
in their respective areas, and the branch offices do not have sufficient staff to monitor
the contracts.




Disability Determination Services’ Use of Volume CE Providers (A-07-02-12049)         6
Georgia DDS

VMPs received about 24 percent of the Georgia DDS’ total CE payments in
FY 2001 (see Appendix C). The Georgia DDS staff stated that recruiting VMPs is a
problem, and securing discounts from VMPs is difficult because of the DDS’ low CE fee
schedule. DDS staff said the fee schedule is rarely changed because the process is
lengthy. To raise a fee, the DDS must conduct an impact study and obtain approval
from the executive management team and the parent agency. According to the staff, the
Georgia DDS tried competitive bidding several years ago, but no bidders responded,
probably because the DDS’ CE fees were below Medicare rates.

Illinois DDS

In FY 2001, VMPs received about 32 percent of the Illinois DDS’ total CE payments
(see Appendix C). The staff stated that recruiting VMPs is not difficult, but the DDS
does not use contracting or competitive bidding. In fact, staff reported there is an
abundance of VMPs interested in performing CEs for the DDS. However, the staff
stated that discounts were not negotiated with VMPs because the VMPs complain about
the low rates of payment and the low volume of CE referrals. The staff said the DDS
fee schedule essentially has not changed for 10 years, but the costs of doing business
have increased for VMPs.

Ohio DDS

In FY 2001, VMPs received about 52 percent of the Ohio DDS’ total CE payments (see
Appendix C). Recruiting VMPs is not a problem, but the DDS staff said that none of the
VMPs are happy with the CE rates of payment. The Ohio DDS was considering
competitive bidding to reduce medical costs and visited the New York DDS to learn
more about contracting. There was some hesitation to pursue competitive bidding
because of potential obstacles, including (1) DDS staff have to expend resources on
administrative tasks related to contracting, (2) low CE fees prevented VMPs from
bidding for CEs, and (3) potential problems canceling contracts because of poor VMP
performance.

Texas DDS

In FY 2001, VMPs received about 32 percent of the Texas DDS’ total CE payments
(see Appendix C). According to Texas DDS staff, Texas State law prohibits the DDS
from using a competitive bidding process,12 but the DDS is allowed to negotiate rates of
payment for CEs. Recruiting VMPs is not a problem for the Texas DDS. However, the
staff stated that VMPs complained about its low CE fees. The staff also said the DDS
paid VMPs the lower of the provider’s billed amount or the DDS fee schedule.
Discounts were not negotiated with VMPs because the DDS considers its fee schedule
already heavily discounted.


12
     Texas Government Code § 2254.003.


Disability Determination Services’ Use of Volume CE Providers (A-07-02-12049)       7
COMPARISON OF DDS AND MEDICARE FEES
The five DDSs in our review that did not obtain discounts from VMPs cited already low
CE fees as the common reason discounts were not obtained. To determine whether the
CE fees at these five DDSs varied significantly from the CE fees at the five DDSs that
obtained discounts from VMPs, we compared the CE fee schedule amounts to
Medicare fees for the same or similar service. This comparison was performed for each
of the 10 DDSs for the CEs that comprised 50 percent or more of their total FY 2001 CE
expenditures (see Appendix D for comparison examples).

Our comparison disclosed that most CE fees for 9 of the 10 DDSs (5 DDSs without
discounts and 4 DDSs with discounts) were less than the 2001 Medicare fees.13 Our
review of the experiences of four of the nine DDSs (Florida, Michigan, Nevada and New
York) shows that low CE fees did not prevent VMPs from providing discounts.

POTENTIAL IMPACT OF VMP DISCOUNTS
Of the 38 DDSs that purchased CEs from VMPs, 33 did not receive discounts. In
FY 2001, the 33 DDSs expended about $69.4 million to purchase CEs from VMPs. If
these DDSs received even minimal CE discounts from VMPs, SSA could realize
significant savings.

                                                       Potential
                                 Discount           Annual Savings
                                Percentage           in CE Costs
                                                     (in millions)
                                      5                 $ 3.47
                                     10                 $ 6.94
                                     15                 $10.41
                                     20                 $13.88

For the details, see Appendix C.

BEST PRACTICES FOR OBTAINING DISCOUNTS
In our communications with DDS staffs, we identified several factors that improved DDS
success in obtaining discounts from VMPs. The factors include the following.

•    A professional relations staff trained in aggressive VMP recruiting and discount
     negotiation.

13
    The Oregon DDS had CE fees based on workers’ compensation rates that were higher than Medicare
fees. In part, DDS fee schedule amounts lower than the 2001 Medicare rates result from either the
DDS’s or parent agency’s decision not to update fee schedule amounts. For examples, Florida and
Illinois have not updated their respective fee schedule amounts since 1991, and Nevada and New York
have not updated since 1997.


Disability Determination Services’ Use of Volume CE Providers (A-07-02-12049)                   8
•   Large urban populations, numbers of medical providers, and large CE workloads
    attract VMP competition.

•   Medical providers see timely DDS payments as an incentive.

•   Elimination of unnecessary paperwork makes a medical provider more willing to
    perform CEs for the DDS.

•   The DDS’ administrative burden can be lightened with access to State contracting
    and legal departments to assist in the competitive bidding process, contract
    development and contract monitoring.

•   DDS management must be willing to provide the resources necessary for recruiting
    VMPs.

•   Experimentation with competitive bidding and/or contracting in a limited geographical
    area with a limited number of medical providers will help the DDSs to gain
    experience and resolve start-up problems before expanding the process to other
    areas of the State.

•   Medical providers who are newly licensed or starting a new practice may be more
    likely to perform CEs at discounted fees.




Disability Determination Services’ Use of Volume CE Providers (A-07-02-12049)        9
                                    Conclusions and
                                      Recommendations
We recognize that all DDSs may not be able to secure discounts from VMPs because of
such factors as size and varying workloads. However, the DDSs should aggressively
attempt to recruit VMPs that perform CEs at discounted fees before concluding that
such discounts are not possible. In FY 2001, the New York, Florida, and Nevada DDSs
showed that some VMPs would provide CE discounts even when DDS rates of payment
already are considered low by some in the medical community.

SSA and the DDSs should explore discounts from VMPs as a way of reducing rising
medical costs. These efforts should include experimenting with competitive bidding
and/or informal negotiations to obtain discounts on CEs from VMPs. We believe that
SSA needs to assist the DDSs in expanding the use of negotiated discounts with VMPs
as a means of reducing medical costs and should concentrate on those DDSs where
such an approach would be cost beneficial to the Agency.

We are recommending that SSA:

1. Identify the methods and processes used by the New York, Florida, and Oregon
   DDSs to obtain discounts from multiple VMPs and disseminate the information to
   other DDSs.

2. Provide guidance to the DDSs on recruiting VMPs and negotiating discounted CE
   fees.


AGENCY COMMENTS
SSA agreed with our recommendations. Specifically, SSA will request the New York,
Florida, and Oregon DDSs to share their expertise in obtaining discounts from VMPs
and will send a memorandum of “best practices” to all DDSs. (See Appendix E for the
full text of SSA’s comments.)




Disability Determination Services’ Use of Volume CE Providers (A-07-02-12049)    10
                                            Appendices




Disability Determination Services’ Use of Volume CE Providers (A-07-02-12049)
                                                  Appendix A
                           Disability Determination Services’
                                       Reasons for Not Using
                 Volume Medical Providers in Fiscal Year 2001
  Disability
Determination              REASONS FOR NO VOLUME MEDICAL PROVIDERS
  Services
Delaware         Numbers of consultative examinations (CEs) insufficient to produce a $100,000 provider.
Guam             Disability Determination Services purchased $16,000 in CEs for FY 2001—small workload.
Hawaii           Has "volume vendors," but none fit the $100,000 criterion.
Idaho            Has "volume vendors," but none fit the $100,000 criterion.
Iowa             Has "volume vendors," but none fit the $100,000 criterion; dispersed population,
                 difficult to have volume medical providers (VMP).
Maine            Small population does not permit high volume of CEs in any one area or specialty.
Montana          Does not have the workload in any one area to support VMPs.
New Hampshire    Numbers of CEs in given area or specialty are insufficient to produce a VMP.
North Dakota     Small population, annual workload of 5,400 claims.
Puerto Rico      Has one VMP, but did not reach the $100,000 criterion.
Rhode Island     Small population—VMPs are not practical.
South Dakota     Small population, annual workload of 8,000 claims, does not fit the $100,000 criterion.
Utah             Small population, do not have the demand for VMPs.
Vermont          Number of claimants cannot support a VMP.
Virgin Islands   Too small for volume.
Wyoming          Small population; has no provider with $100,000 worth of services.




Disability Determination Services’ Use of Volume CE Providers (A-07-02-12049)
                                                                                                                                                                                             Appendix B
       Reasons Disability Determination Services Did Not Secure
          Discounts on Consultative Examinations from Existing
                  Volume Medical Providers in Fiscal Year 2001
                  VMPs have made special                                                                  REASONS FOR NO DISCOUNTS



                                                                  rates of payment set by
                                                                  DDS uses fee schedule




                                                                                                                    recruiting, maintaining
                                                                                            low or noncompetitive




                                                                                                                                              DDS cannot guarantee
                                                                                            Fee schedule reflects
                                           Quality of exams and




                                                                                                                                              the volume of exams
                                                                                                                    Noncompetitive fees
                                           reports may suffer



                                                                  the parent agency




                                                                                                                    cause difficulty in
                  accommodations




                                                                                            payment rates
  Disability                                                                                                                                                                     Other Reasons or Notes
Determination




                                                                                                                    CE panel
  Services

Alabama                                                                 
Alaska                                                                                                                                                              Parent agency requires payment for CEs at the medical
                                                                                                                                                                     provider’s usual and customary charges.
Arizona                                                                                                                                                           VMPs receive an additional fee for traveling to remote
                                                                                                                                                                     areas.
Arkansas                                                                 
California                                                                                                                
Colorado                                                                                                                                                            Parent agency requires DDS to competitively bid some
                                                                                                                                                                     CEs. Fees to VMPs are based on contract agreements.
Connecticut                                                            
District of                                                                                      
Columbia
Georgia                                                                                                                   
Illinois                                                                                        
Indiana                                                                                          
Kansas                                                                                           
Kentucky                                                                                                                 
Louisiana                                                                                        
Maryland                                                                                                                                                         Vendor rotation system required by parent agency.
Massachusetts                                                                                    
Minnesota                                                                                                                                       
Mississippi                                                                                                               
Missouri                                                                 
Nebraska                                                                                        
New Jersey                                                                                                                                                        Wants flexibility in scheduling CEs.
New Mexico                                                                                      
North Carolina                                                                                 
Ohio                                                                                             
Oklahoma                                                                                        
Pennsylvania                                                                                                                                                        Wants to preserve relations by using community-based
                                                                                                                                                                     providers.
South Carolina                                                                                   
Tennessee                                                                                                                 
Texas                                                                                            
Virginia                                                                 
Washington                                                                                       
West Virginia                                                            
Wisconsin                                                                                                                 


Disability Determination Services' Use of Volume CE Providers (A-07-02-12049)
                                                   Appendix C
          Hypothetical Discounts at 33 Disability Determination
                     Services That Did Not Receive Discounts
                               from Volume Medical Providers
                             ACTUAL PAYMENTS                             HYPOTHETICAL    DISCOUNTS
                            TOTAL     VMP    %                        5% OF   10% OF   15% OF   20% OF
             DDSs           DDS CE  PAYMENT VMP                        VMP     VMP      VMP      VMP
#                          PAYMENT          PYMT                     PAYMENT PAYMENT  PAYMENT  PAYMENT
     1   Alabama           $ 7,063,218    $       425,818    6.03%   $    21,291 $    42,582 $          63,873   $      85,164
     2   Alaska            $ 1,038,784    $       264,541   25.47%   $    13,227 $    26,454 $          39,681   $      52,908
     3   Arizona           $ 3,457,643    $       488,313   14.12%   $    24,416 $    48,831 $          73,247   $      97,663
     4   Arkansas          $ 2,858,514    $       216,037    7.56%   $    10,802 $    21,604 $          32,406   $      43,207
     5   California        $ 34,700,904   $    21,945,061   63.24%   $ 1,097,253 $ 2,194,506 $       3,291,759   $   4,389,012
     6   Colorado          $ 3,134,854    $     1,596,198   50.92%   $    79,810 $   159,620 $         239,430   $     319,240
     7   Connecticut       $ 2,213,794    $       157,025    7.09%   $     7,851 $    15,703 $          23,554   $      31,405
     8   District of       $    971,811   $       265,212   27.29%   $    13,261 $    26,521 $          39,782   $      53,042
         Columbia
         ∗
 9         Georgia         $ 12,751,358    $    3,115,825   24.44%   $   155,791   $   311,583   $    467,374    $    623,165
10       Illinois          $ 10,505,026   $     3,322,320   31.63%   $   166,116   $   332,232   $    498,348    $    664,464
11       Indiana           $ 5,340,158    $     1,603,038   30.02%   $    80,152   $   160,304   $    240,456    $    320,608
12       Kansas            $ 2,104,846    $       642,750   30.54%   $    32,138   $    64,275   $     96,413    $    128,550
13       Kentucky          $ 6,187,152    $     2,626,827   42.46%   $   131,341   $   262,683   $    394,024    $    525,365
14       Louisiana         $ 7,644,523    $     2,073,152   27.12%   $   103,658   $   207,315   $    310,973    $    414,630
15       Maryland          $ 3,431,600    $       246,248    7.18%   $    12,312   $    24,625   $     36,937    $     49,250
16       Massachusetts     $ 1,071,926    $       246,923   23.04%   $    12,346   $    24,692   $     37,038    $     49,385
17       Minnesota         $ 2,651,208    $       963,132   36.33%   $    48,157   $    96,313   $    144,470    $    192,626
18       Mississippi       $ 3,428,921    $       822,641   23.99%   $    41,132   $    82,264   $    123,396    $    164,528
19       Missouri          $ 4,271,236    $       769,191   18.01%   $    38,460   $    76,919   $     115,379   $     153,838
20       Nebraska          $ 1,254,125    $       193,147   15.40%   $     9,657   $    19,315   $      28,972   $      38,629
21       New Jersey        $ 7,029,138    $     3,199,901   45.52%   $   159,995   $   319,990   $     479,985   $     639,980
22       New Mexico        $ 1,731,743    $       165,228    9.54%   $     8,261   $    16,523   $      24,784   $      33,046
23       North Carolina    $ 9,790,655    $     1,444,535   14.75%   $    72,227   $   144,454   $     216,680   $     288,907
24       Ohio              $ 14,146,179   $     7,397,034   52.29%   $   369,852   $   739,703   $   1,109,555   $   1,479,407
25       Oklahoma          $ 3,644,084    $       780,047   21.41%   $    39,002   $    78,005   $     117,007   $     156,009
26       Pennsylvania      $ 9,540,197    $       241,554    2.53%   $    12,078   $    24,155   $      36,233   $      48,311
27       South Carolina    $ 5,575,261    $       571,374   10.25%   $    28,569   $    57,137   $      85,706   $     114,275
28       Tennessee         $ 8,900,185    $     2,083,387   23.41%   $   104,169   $   208,339   $     312,508   $     416,677
29       Texas             $ 21,831,456   $     7,022,493   32.17%   $   351,125   $   702,249   $   1,053,374   $   1,404,499
30       Virginia          $ 3,787,188    $       340,434    8.99%   $    17,022   $    34,043   $      51,065   $      68,087
31       Washington        $ 5,893,144    $     1,609,000   27.30%   $    80,450   $   160,900   $     241,350   $     321,800
32       West Virginia     $ 3,360,598    $     1,538,531   45.78%   $    76,927   $   153,853   $     230,780   $     307,706
33       Wisconsin         $ 3,684,032    $     1,037,679   28.17%   $    51,884   $   103,768   $     155,652   $     207,536
         TOTALS∗∗         $ 214,995,461   $ 69,414,596               $ 3,470,730 $ 6,941,460 $10,412,189 $13,882,919




∗
    Annual payment to Georgia’s VMPs was estimated from 3 quarters of information.
∗∗
  Due to rounding error, one or more totals may be slightly skewed.
Disability Determination Services’ Use of Volume CE Providers (A-07-02-12049)
                                                  Appendix D
              Comparison of Disability Determination Services’
                         Rates for Consultative Examinations
                                          to Medicare’s Rates
Three Examples of Disability Determination Services With Discounts

Of the five Disability Determination Services (DDS) with discounts, the Florida, New
York, and Oregon DDSs reported more success securing discounts from volume
medical providers (VMP). The Florida and New York DDSs had consultative
examination (CE) fee schedule amounts that were less than 2001 Medicare fee
schedule rates (except for x-rays in New York). On the other hand, the Oregon DDS
obtained discounts from VMPs perhaps because of having considerably higher CE fee
schedule amounts than the 2001 Medicare rates.

To compare DDS fee schedule amounts to the 2001 Medicare rates, we asked DDSs in
this review to send us the types of CEs most frequently purchased by the DDS that
account for at least 50 percent of its FY 2001 CE expenditures and the fee schedule
amounts. We did not verify the information sent to us by the DDSs.

         Florida DDS: Since the early 1980s, the Florida DDS has been securing
         discounts by having the staff negotiate with VMPs. The Florida DDS’ fee
         schedule is based on 1991 Medicare rates, and the staff indicated that CEs were
         obtained at or below these rates in FY 2001. The DDS could not provide us with
         the amount of savings obtained through discounted CEs.

To compare the DDS’ fees to the 2001 Medicare fees, the DDS provided us with two CE
types that accounted for at least 50 percent of its FY 2001 CE expenditures. In the
table below, the data indicate the DDS fee schedule amounts were lower than the
crosswalked examinations in the 2001 Medicare fee schedule.


                                                      FLORIDA DDS
 DDS     DESCRIPTION        DOLLAR     MEDICARE           DESCRIPTION              DOLLAR       Dollar      Percent
CODE                        AMOUNT       CODE                                      AMOUNT     Difference   Difference
90630 * General Medical       $ 123.79      99243 Office Consultation (Detailed)   $ 139.64     $(15.85)         (13)
 A211 * Psychological         $ 121.01            90801 Psychiatric Examination    $ 171.60     $(50.59)         (42)
* We performed the crosswalk to Medicare codes.




Disability Determination Services’ Use of Volume CE Providers (A-07-02-12049)                                  D-1
         New York DDS: The New York DDS has used competitive bidding since 1986 to
         secure discounts from VMPs. The DDS’ fee schedule is based on State workers’
         compensation fees. In FY 2001, the DDS claimed savings that varied from
         9 to 45 percent, based on the contractor, location and amount of discount.

To compare the DDS’ fee schedule amounts to the 2001 Medicare rates, the New York
DDS provided us with four CE types that accounted for at least 50 percent of its FY
2001 CE expenditures. In the table below, data for New York DDS show that the fee
schedule amounts of three of the four CEs are lower than the crosswalked examinations
in the 2001 Medicare fee schedule (except for x-rays).


                                                    NEW YORK DDS
 DDS         DESCRIPTION         DOLLAR MEDICARE                  DESCRIPTION              DOLLAR         Dollar       Percent
CODE                             AMOUNT   CODE                                             AMOUNT       Difference    Difference
90003 * Complete Psychiatric      $ 95.00         90801 Psychiatric Diagnostic Interview    $ 191.42     $(96.42)          (101)
        Examination                                     Examination
90001 * Complete Specialist       $ 95.00         99243 Office Consultation (Detailed)      $ 157.29     $(62.29)           (66)
        Examination
90002 * Complete Orthopedic       $ 95.00         99243 Office Consultation (Detailed)      $ 157.29     $(62.29)           (66)
        Examination
72100** X-ray Spine, Lumbar,      $ 88.00         72100 Radiological Exam, Spine,          $   56.47      $ 31.53              36
        Sacral, Ap                                      Lumbosacral; Ap and Lateral
        And Lateral
* We performed the crosswalk to Medicare codes.   ** The DDS provided the Medicare code.


         Oregon DDS: Since 1984, the Oregon DDS has used competitive bidding to
         secure discounts from VMPs. Like New York’s fee schedule, Oregon DDS’ fee
         schedule is based on State workers’ compensation fees. In FY 2001, the DDS
         claimed a $51,594 savings from discounted CEs.

To compare the DDS’ fee schedule amounts to the 2001 Medicare fees, Oregon DDS
provided us with three CE types that accounted for at least 50 percent of the DDS’ total
CE expenditures in FY 2001. In the following table, data show that the DDS fee
schedule amounts of the three CEs were higher than the crosswalked examinations in
the 2001 Medicare fee schedule.


                                                    OREGON DDS
  DDS       DESCRIPTION            DOLLAR MEDICARE               DESCRIPTION               DOLLAR        Dollar       Percent
 CODE                              AMOUNT       CODE                                       AMOUNT      Difference    Difference
E114 * Psychodiagnostic             $243.97        99244 Office Consultation               $ 182.43      $ 61.54             25
                                                         (Comprehensive)
E105 * Orthopedic                   $243.97        99244 Office Consultation               $ 182.43      $ 61.54             25
                                                         (Comprehensive)
E116 * Adult Neuropsychological     $515.12        96117 Neuropsychological Testing        $ 239.31     $275.81              54
                                                         Battery
* The DDS performed the crosswalk to Medicare codes.




Disability Determination Services’ Use of Volume CE Providers (A-07-02-12049)                                            D-2
                                                                           Appendix E
                                                        Agency Comments




Disability Determination Services’ Use of Volume CE Providers (A-07-02-12049)
                                           SOCIAL SECURITY

MEMORANDUM                                                                           32077-24-881


Date:      January 31, 2003                                                          Refer To: S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry Dye      /s/
           Chief of Staff

Subject:   Office of the Inspector General Draft Management Advisory Report, “Disability Determination
           Services’ Use of Volume Consultative Examinations Providers” (A-07-02-12049)—
           INFORMATION


           We appreciate OIG's efforts in conducting this review. Our comments and recommendations are
           attached.

           Please let us know if we can be of further assistance. Staff questions can be referred to
           Janet Carbonara on extension 53568.

           Attachment:
           SSA Response




           Disability Determination Services’ Use of Volume CE Providers (A-07-02-12049)               E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
MANAGEMENT ADVISORY REPORT, “DISABILITY DETERMINATION SERVICES’ USE
OF VOLUME CONSULTATIVE EXAMINATION PROVIDERS” (A-07-02-12049)

We thank you for the opportunity to review this draft management advisory report and appreciate
your efforts. It is Agency policy to make every effort to ensure that purchases of consultative
examinations (CE) by State Disability Determination Services (DDS) follow the appropriate
regulatory guideline with regard to fee schedules.

We believe that it is part of the Agency oversight responsibility to continue to advocate that
DDSs share their best practices to foster efficiency and low costs in the CE process. In
Appendix C of this report, there is a list of potential savings if DDSs were able to negotiate
discounts from Volume Medical Providers (VMPs). However, we believe even under the best
circumstances these savings cannot be realized.

Recommendation 1

Identify the methods and processes used by the New York, Florida, and Oregon DDSs to obtain
discounts from multiple VMPs and disseminate the information to other DDSs.

Comment

We will contact New York, Florida and Oregon by May 2003, to request that they share their
expertise in obtaining discounts from VMPs. We will then prepare a memorandum to transmit
their “best practices” to all the DDSs.

Recommendation 2

Provide guidance to the DDSs on recruiting VMPs and negotiating discounted CE fees.

Comment

We will contact New York, Florida and Oregon by May 2003, to request that they share their
expertise in obtaining discounts from VMPs. We will then prepare a memorandum to transmit
their “best practices” to all the DDSs.




Disability Determination Services’ Use of Volume CE Providers (A-07-02-12049)               E-2
                                                                           Appendix F
       OIG Contacts and Staff Acknowledgments
OIG Contact
       Mark D. Bailey, Director, (816) 936-5591


Acknowledgments
In addition to those named above:

       Francis W. Fernandez, Director

       Carol Cockrell, Program Analyst

       Ronald Bussell, Lead Auditor

       Kenneth Bennett, Lead Auditor

       Kimberly Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-07-02-12049.




Disability Determination Services’ Use of Volume CE Providers (A-07-02-12049)
                             DISTRIBUTION SCHEDULE

                                                                         No. of
                                                                         Copies

Commissioner of Social Security                                              1
Management Analysis and Audit Program Support Staff, OFAM                   10
Inspector General                                                            1
Assistant Inspector General for Investigations                               1
Assistant Inspector General for Executive Operations                         3
Assistant Inspector General for Audit                                        1
Deputy Assistant Inspector General for Audit                                 1
 Director, Data Analysis and Technology Audit Division                       1
 Director, Financial Audit Division                                          1
 Director, Southern Audit Division                                           1
 Director, Western Audit Division                                            1
 Director, Northern Audit Division                                           1
 Director, General Management Audit Division                                 1
Team Leaders                                                                25
Income Maintenance Branch, Office of Management and Budget                   1
Chairman, Committee on Ways and Means                                        1
Ranking Minority Member, Committee on Ways and Means                         1
Chief of Staff, Committee on Ways and Means                                  1
Chairman, Subcommittee on Social Security                                    2
Ranking Minority Member, Subcommittee on Social Security                     1
Majority Staff Director, Subcommittee on Social Security                     2
Minority Staff Director, Subcommittee on Social Security                     2
Chairman, Subcommittee on Human Resources                                    1
Ranking Minority Member, Subcommittee on Human Resources                     1
Chairman, Committee on Budget, House of Representatives                      1
Ranking Minority Member, Committee on Budget, House of Representatives       1
Chairman, Committee on Government Reform and Oversight                       1
Ranking Minority Member, Committee on Government Reform and Oversight        1
Chairman, Committee on Governmental Affairs                                  1
Ranking Minority Member, Committee on Governmental Affairs                        1
Chairman, Committee on Appropriations, House of Representatives                   1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                         1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                         1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                         1
Chairman, Committee on Appropriations, U.S. Senate                                1
Ranking Minority Member, Committee on Appropriations, U.S. Senate                 1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate                   1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                      1
Chairman, Committee on Finance                                                    1
Ranking Minority Member, Committee on Finance                                     1
Chairman, Subcommittee on Social Security and Family Policy                       1
Ranking Minority Member, Subcommittee on Social Security and Family Policy        1
Chairman, Senate Special Committee on Aging                                       1
Ranking Minority Member, Senate Special Committee on Aging                        1
President, National Council of Social Security Management Associations,
  Incorporated                                                                    1
Treasurer, National Council of Social Security Management Associations,
 Incorporated                                                                     1
Social Security Advisory Board                                                    1
AFGE General Committee                                                            9
President, Federal Managers Association                                           1
Regional Public Affairs Officer                                                   1


Total                                                                        96
                   Overview of the Office of the Inspector General


                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                   Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
